Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    STATE USE OF DEBT 

COMPROMISE TO REDUCE CHILD 

   SUPPORT ARREARAGES





                    Daniel R. Levinson

                     Inspector General 


                      October 2007

                     OEI-06-06-00070

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
  Δ         E X E C U T I V E                      S U M M A R Y



                    OBJECTIVE
                    To determine the prevalence, characteristics, and outcomes of debt
                    compromise programs used by State child support enforcement (CSE)
                    agencies to reduce child support arrearages.


                    BACKGROUND
                    The Office of Child Support Enforcement (OCSE) estimates that
                    $100 billion in unpaid child support has accumulated since the inception
                    of a national CSE program in 1972. In an effort to reduce or eliminate
                    possibly uncollectible debt, some States use debt compromise, a process
                    whereby a State settles a portion or all of the child support debt owed to
                    the State by a noncustodial parent. For this evaluation, we identified
                    debt compromise practices among all States based on responses to a
                    survey, evaluated program outcomes through site visits to five States,
                    and examined a sample of 259 cases that underwent debt compromise.


                    FINDINGS
                    CSE agencies in 20 States operate fully implemented or pilot debt
                    compromise programs, and another 23 States settle arrearage debt
                    on a case-by-case basis. Of the 20 States that have debt compromise
                    programs, 12 are fully implemented and 8 are pilot programs. Twenty-
                    three other States compromise arrearages on a case-by-case basis, and
                    the remaining eight States do not allow compromise of arrearages.
                    Debt compromise resulted in an average of $9,383 settled per case
                    in selected States, with lump sum payments made in 45 percent of
                    cases and averaging $5,515. In the five States, the estimated average
                    arrearage per case was $22,029, of which $9,383 was settled.
                    Noncustodial parents in 45 percent of cases paid lump sums at the time
                    of the agreements averaging $5,515, which was disbursed to States for
                    reimbursement of public assistance and/or to custodial parents for
                    payment of past due child support.
                    Forty-one percent of sample cases closed following debt
                    compromise, either after lump sum payments or with all debt
                    settled. In all closed cases in our sample, the noncustodial parent owed
                    only an arrearage. Noncustodial parents in 65 percent of cases that
                    closed paid lump sums as part of the debt compromise agreements. In

OEI-06-06-00070     S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   i
    E X E C U T I V E                  S U     M M A R Y


                  the remaining 35 percent of cases that closed, the full amount of the
                  arrearage was settled because CSE officials determined that the
                  noncustodial parents were unable to pay any amount or that the
                  families were best served by settling all of the debt.
                  When sample cases remained open following debt compromise,
                  four of five States did not routinely follow up when noncustodial
                  parents paid irregularly. Fifty-nine percent of cases in our sample
                  remained open following compromise. Although all five selected States
                  conduct general reviews of all child support cases, only California
                  reported routinely monitoring debt compromise cases that remain open
                  to determine whether noncustodial parents meet their agreements. We
                  found that noncustodial parents in 60 of the 154 sample cases paid
                  irregularly or not at all following debt compromise but found evidence of
                  rescission in only 2 of these 60 sample cases.
                  Cases are eligible for debt compromise based on a number of
                  factors, including large arrearages, and local managers typically
                  negotiate agreements. Eighteen of the twenty States with programs
                  consider the amount of the arrearage in determining eligibility. Other
                  factors included whether dependents are emancipated and how long the
                  arrearage has been in the caseload. After determining eligibility, local
                  managers most often make the determination to allow debt compromise.
                  CSE officials in States with programs report a largely positive view
                  of debt compromise, although a few express concern that settling
                  debt is contrary to the enforcement process. Officials in 17 of the
                  20 States with programs reported advantages, including receiving debt
                  payments previously considered uncollectible. Officials from three
                  States noted drawbacks to debt compromise, including the belief that it
                  conflicts with the agency’s mission to enforce and collect child support.


                  RECOMMENDATION
                  We recommend that OCSE issue guidance encouraging States to
                  routinely monitor cases that remain open following debt compromise
                  agreements to ensure that noncustodial parents meet their agreements.
                  Because of the high level of interest in debt compromise, we suggest
                  that OCSE also consider issuing guidance regarding the administration
                  of debt compromise programs to assist States that are considering new
                  programs or revising current practices. Topics could include the criteria
                  used for determining eligibility, the proportion of the debt to be settled,

OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   ii
    E X E C U T I V E                  S U     M M A R Y


                  suggestions for training staff in making determinations, and use of debt
                  compromise to close child support cases only owing arrearages.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  The Administration for Children and Families (ACF) and the Assistant
                  Secretary for Planning and Evaluation (ASPE) jointly provided
                  comments in response to our draft report. ACF concurred with our
                  recommendation and suggestion and outlined current and planned
                  guidance activities. In describing this current and proposed guidance,
                  ACF did not explicitly address providing guidance to States regarding
                  monitoring of open cases following debt compromise agreements.
                  Because the lack of monitoring of debt compromise cases poses a
                  vulnerability to the integrity of State debt compromise programs, we
                  recommend that ACF provide guidance to States specific to this issue.
                  ASPE commented that the report was useful in providing information
                  regarding a policy area in which little research exists.




OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   iii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 5

                   CSE agencies in 20 States operate debt compromise programs . . . 5 


                   Compromise resulted in an average of $9,383 settled per case. . . . 6 


                   Forty-one percent of cases closed following debt compromise . . . . . 7 


                   States did not routinely follow up on irregular payers . . . . . . . . . . 7 


                   Cases are eligible for compromise based on a number of factors . . 8


                   CSE officials report a largely positive view of compromise . . . . . . 10 




         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                   Agency Comments and Office of Inspector General Response . . . 13 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                   A: Descriptions of Child Support Programs in Selected States . . 14 


                   B: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


                   C: Status of Debt Compromise for All States . . . . . . . . . . . . . . . . 20 


                   D: Estimates and Confidence Intervals. . . . . . . . . . . . . . . . . . . . . 22 


                   E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 

Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine the prevalence, characteristics, and outcomes of debt
                  compromise programs used by State child support enforcement (CSE)
                  agencies to reduce child support arrearages.


                  BACKGROUND
                  The Office of Child Support Enforcement (OCSE) estimates that just
                  over $100 billion in unpaid child support (referred to as arrearages) has
                  accumulated since the inception of a national CSE program in 1975.1
                  State CSE agencies collect payments toward both current child support
                  orders for children still living in the custodial parent’s home, and
                  arrearage debt that accumulates when noncustodial parents do not pay
                  all of the current support owed. The collection of current child support
                  has risen considerably in recent years, but arrearage debt remains high.
                  In fiscal year (FY) 2005, State CSE agencies overall collected 60 percent
                  of the $29 billion due in current support and 7 percent of the $107
                  billion due in arrearages. However, 40 percent of noncustodial parents
                  with arrearages paid nothing toward their arrearages in 2005. 2 State
                  collection rates for both current support and arrearages are among the
                  criteria OCSE considers in determining incentive funding to States.3
                  States have implemented a number of strategies to reduce arrearages,
                  including the use of debt compromise.
                  Debt Compromise Programs
                  Debt compromise is a process of reducing or eliminating child support
                  debt owed to the State by settling a portion or all of arrearages that are
                  owed from a prior outlay of public assistance, referred to as “assigned”
                  debt. Custodial parents may allow noncustodial parents to also settle

                     1 Office of Child Support Enforcement, Administration for Children and Families,

                     Department of Health and Human Services, FY 2002 and FY 2003 Annual Report to
                     Congress. Available online at
                     www.acf.hhs.gov/programs/cse/pubs/2005/reports/annual_report/table_64.html.
                     Accessed August 1, 2007. 

                     2 Office of Child Support Enforcement FY 2005 Preliminary Report to Congress, May 


                     2006. Available online at 

                     www.acf.hhs.gov/programs/cse/pubs/2006/reports/preliminary_report. Accessed May 9, 

                     2007. 

                     3Social Security Act § 458(b)(6). The Social Security Act was amended by the Child 

                     Support Performance Incentive Act of 1998, to determine incentive payments to States 

                     based on performance in five areas: paternity establishment, order establishment, 

                     current collections, arrearage collections, and cost-effectiveness. 




OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES                 1
I N T R O D        U C T            I O N


                    debt that is owed to them from unpaid support, referred to as
                    “unassigned debt,” either at the time of the debt compromise agreement
                    or at another time. However, debt owed to custodial parents is settled
                    only at the discretion of the custodial parent and is generally not subject
                    to State-determined debt compromise criteria. States often require that
                    noncustodial parents pay lump sums toward the arrearages and/or
                    improve payments of current support. In a 1999 memorandum to State
                    CSE agencies, OCSE acknowledged debt compromise as an option under
                    State law to negotiate arrearages in cases where parents marry or
                    remarry and are faced with large child support arrearage payments.4
                    OCSE’s policy allows State legislatures and CSE agencies to design
                    their own debt compromise programs and determine eligibility.
                    However, OCSE has not issued guidelines regarding the administration
                    of State debt compromise programs and does not track or monitor those
                    States that have implemented such programs. In its annual
                    Compendium of Best Practices, OCSE has several times included
                    information about State programs for addressing child support arrears,
                    including references to debt compromise.5
                    Title IV-D of the Social Security Act made child support payments a
                    judgment “with the full force, effect and attributes of a State
                    judgment.”6 Although child support debt cannot be retroactively
                    modified, this provision allows States to settle assigned arrearages if
                    State law allows. This provision means that States may reduce
                    arrearages in the same manner they might settle any other debt owed
                    the State. Depending on the policies of individual States, reductions in
                    child support debt are determined by State or local courts, by State CSE
                    agencies, or by a combination of the two. OCSE estimates that about
                    half of arrearages are owed to State governments as reimbursement for
                    public assistance benefits paid to families, and the remaining
                    arrearages constitute outstanding obligations to custodial parents
                    (settled only at the discretion of the custodial parent).7 Although a

                       4Office of Child Support Enforcement PIQ-99-03 Memorandum, “Public Policy 

                       Supporting Compromise of Arrearages,” March 22, 1999. Available online at 

                       www.acf.hhs.gov/programs/cse/pol/PIQ/1999/piq-9903.htm. Accessed May 9, 2007. 

                       5 Office of Child Support Enforcement, “Compendium of State Best Practices and Good


                       Ideas in Child Support Enforcement,” 2003, 2005, and 2007. 

                       6   Social Security Act § 466(a)(9). 

                       7Office of Child Support Enforcement FY 2003 Report to Congress, June 2004. Available 

                       online at 

                       www.acf.hhs.gov/programs/cse/pubs/2004/reports/preliminary_data/index.html#_ftn1. 

                       Accessed May 9, 2007. 




 OEI-06-06-00070    S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES               2
I N T R O D        U C T            I O N


                    portion of any reimbursement for public assistance is ultimately owed to
                    the Federal Government,8 Federal distribution laws require States to
                    reimburse the Federal portion only when child support is actually
                    collected.9 Therefore, States are allowed to settle public assistance debt
                    when deemed appropriate without remaining obligated to reimburse the
                    Federal portion.

                    The concept of debt compromise has gained popularity among State
                    CSE agencies and child advocacy groups. Advocates contend that the
                    burden of large arrearages may reduce noncustodial parents’ ability or
                    willingness to make current support payments and may discourage
                    family unity. A July 2000 Office of Inspector General report concerning
                    low-income noncustodial parents found that many methods used by
                    States for child support enforcement did not generate child support
                    payments by low-income noncustodial parents.10
                    Debt compromise is one of several strategies used by States to meet the
                    challenge of reducing arrearages. Other strategies include reducing or
                    eliminating interest, establishing orders appropriate to the noncustodial
                    parent’s income, reviewing and adjusting orders as circumstances
                    change, limiting retroactive support, and notifying parents at the first
                    missed payment to address arrearages before they are unmanageable.


                    METHODOLOGY
                    Data Collection and Analysis
                    To determine the prevalence and characteristics of debt compromise
                    practices among States, we surveyed all States and the District of
                    Columbia (hereafter referred to as States). From States with some
                    experience with debt compromise, we requested documentation
                    regarding their practices, including relevant State laws or policies,
                    eligibility requirements, and participation levels in 2005. To evaluate
                    the outcomes of debt compromise programs relative to current child
                    support collections, we purposively selected five States (California,
                    Massachusetts, New Mexico, Texas, and Washington) for a detailed
                    review of child support cases with debt compromise agreements. We

                       8   Social Security Act §§ 1905(b) and 1101(a)(8)(B).
                       9   Social Security Act § 457(a)(1)(2)(3).
                       10Office of Inspector General, Department of Health and Human Services,
                       “Establishment of Child Support Orders for Low Income Non-custodial Parents,” OEI-05-
                       99-00390, July 2000. Available online at http://oig.hhs.gov/oei/reports/oei-05-99-
                       00390.pdf. Accessed May 9, 2007.


 OEI-06-06-00070    S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES            3
I N T R O D        U C T            I O N


                    selected States that represented a diverse mix in regard to program
                    characteristics such as how large the caseload was, whether the State
                    relied primarily on judicial or administrative procedures, and how long
                    debt compromise had been used. (See Appendix A for descriptions of the
                    child support programs in these States.)

                    From the five States, we randomly selected a total of 259 sample cases
                    for review from a list of all cases involved in debt compromise
                    agreements since each program’s inception. We conducted case reviews
                    during site visits to the State CSE office in each of the five States. The
                    case reviews entailed collecting data regarding amounts of arrearages,
                    amounts compromised, payment histories, case characteristics, and
                    additional requirements imposed on noncustodial parents as a part of
                    the debt compromise agreements. We projected our findings to the
                    population of debt compromise cases in the five selected States.

                    We also interviewed State child support agency officials about staff
                    involvement in developing and implementing debt compromise
                    programs, their experiences, and their perceptions of program results.

                    To determine the outcomes of debt compromise in cases with current
                    payment obligations, we analyzed payment data for each sample case
                    for 12 months prior to the compromise agreement and 12 months after.
                    We compared the payment frequency to determine whether these
                    measures changed following debt compromise. Additionally, for the
                    same periods before and after debt compromise, we differentiated cases
                    with current support orders from those with only arrearage obligations.
                    We also categorized payment behavior in each case into two groups
                    based on regularity of payment. Cases that had no more than 3 missed
                    payments on a biweekly payment schedule (26 payments) or no more
                    than 1 missed payment on a monthly schedule (12 payments) were
                    categorized as “Regular Payment.” All other cases were categorized as
                    “Irregular Payment.” These measures were used to identify changes in
                    the noncustodial parent’s behavior after a compromise agreement.

                    See Appendix B for a detailed description of the methodology.
                    Standards

                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-06-06-00070    S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   4
F   I N D I N G        S
Δ       F I N D I N G S

                                                              Twelve States have fully
           CSE agencies in 20 States operate fully
                                                              implemented debt compromise
           implemented or pilot debt compromise               programs, meaning that the
           programs, and another 23 States settle             programs are based on State
           arrearage debt on a case-by-case basis             policy and have established
                                                              procedures (see Table 1). Eight
                      additional States have pilot programs, five of which operate only in
                      selected counties. In return for settling arrearages, States negotiate
                      with the noncustodial parent to make a lump sum payment toward the
                      arrearage (19 States), make regular payments on the arrearages and
                      any current support orders (19 States), take steps toward involvement
                      with the dependent child (8 States), participate in a fatherhood program
                      (7 States), attend a parenting program (5 States), or maintain
                      employment (4 States) or impose a combination of these requirements.

                                                                        Table 1:
                                                       State Use of Debt Compromise

                       Debt Compromise Use                                                          Number of States

                       Operate debt compromise programs                                                   20
                                Fully implemented (12)
                                Pilot programs (8)
                       Use debt compromise on a case-by-case basis                                        23

                       Debt compromise not offered                                                         8

                       Source: Office of Inspector General analysis of responses from 51 States, 2006.


                      Twenty-three States allow compromise of arrearages on a case-by-case
                      basis, determining amounts, criteria, and conditions for individual cases
                      and without formal policies. For example, one State agency reported
                      compromising arrearages in rare cases if the debt is considered
                      uncollectible or if it is determined to be in the best interest of the child.
                      Officials from 15 of the 23 States reported that their agencies are
                      considering implementing formal debt compromise programs. The
                      remaining eight States reported that they do not allow compromise of
                      arrearages owed to the State. Six of these eight States have laws that
                      specifically prohibit the compromise of any debt owed to the State. (See
                      Appendix C for a list of all States and their debt compromise status.)
                      All States reported that they will negotiate reductions in unassigned
                      debt owed to custodial parents if requested by either party.



    OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES                      5
F   I N D I N G        S          





 Debt compromise agreements resulted in an                 The estimated average arrearage
                                                           per case of cases involved in debt
average of $9,383 settled per case in selected
                                                           compromise agreements in the five
    States, with lump sum payments made in
                                                           selected States was $22,029. This
    45 percent of cases and averaging $5,515               arrearage amount was reduced
                                                           through debt compromise
                      agreements by an average of $9,383 per case (see Table 2).
                      Noncustodial parents in 45 percent of cases made lump sum payments
                      at the time of the debt compromise agreements. The average lump sum
                      paid was $5,515, disbursed to States for reimbursement of public
                      assistance provided to the custodial parent and family and/or to
                      custodial parents for payment of past-due child support.

                                                                             Table 2:
                        Averages of Arrearages Owed and Settled and Lump Sum Payments Made For
                                      Debt Compromise Cases in Five Selected States

                           Selected State                  Average               Average Arrearage           Average
                                                    Arrearage Owed                          Settled   Lump Sum Paid
                                                                   n = 259                  n = 259   at Compromise*
                                                                                                              n = 117

                                      California                  $21,009                   $16,324           $4,061

                            Massachusetts                         $11,029                    $3,544           $8,108

                               New Mexico                         $16,514                   $11,000           $2,617

                                           Texas                  $19,349                   $13,824           $1,139

                                Washington                        $24,446                    $7,828           $5,838

                              All 5 States                        $22,029                   $9,383            $5,515

                       Source: Office of Inspector General analysis of a sample of 259 cases in five States, 2006.
                       See Appendix D for confidence intervals.
                       *Average lump sum paid may be greater than average arrearage owed because cases with
                       lump sums were a subset (45 percent) of total cases.




    OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES                    6
      F   I N D I N G        S          



                                                                       Among the 41 percent of sample
              Forty-one percent of sample cases closed                 cases that closed following debt
          following debt compromise, either after lump                 compromise (105 cases),
                  sum payments or with all debt settled                noncustodial parents in
                                                                       65 percent of cases (68 cases)
                            paid a lump sum to close their cases.11 In all of these cases, there was
                            no current support due and the parents owed only an arrearage.
                            Officials in all five States reported case closure was a benefit of debt
                            compromise. In New Mexico, the State with the highest proportion of
                            closures (68 percent), officials reported that their debt compromise
                            program targets older cases with no current support due.
                            In the remaining 35 percent of cases that closed at compromise
                            (37 cases), the noncustodial parent did not make a lump sum payment
                            and the full amount of the arrearage was settled. In these cases, CSE
                            officials determined that the noncustodial parent was unable to pay any
                            amount toward the arrearage (because parents were receiving disability
                            benefits, were being incarcerated for long periods, or were gravely ill) or
                            that the families were best served by settling all of the debt. Examples
                            include cases in which the parents reconciled and cases in which the
                            children were emancipated and the noncustodial parent had another,
                            newer case with dependent children in need of current support.

                                                                     Fifty-nine percent of cases in our
   When sample cases remained open following debt                    sample remained open following
     compromise, four of five States did not routinely               compromise, because noncustodial
follow up when noncustodial parents paid irregularly                 parents were either still obligated
                                                                     to pay toward current child
                            support and any arrearage still owed (62 percent) or obligated to pay
                            only toward remaining arrearages (38 percent). CSE agency officials in
                            the five States reported that they would rescind agreements and
                            reinstate debt if noncustodial parents with cases that remained open
                            did not fulfill the conditions of their debt compromise agreements.
                            However, although all five selected States conduct routine general
                            reviews of child support cases, only California reported routinely
                            monitoring debt compromise cases that remain open to determine


                               11 Although the data presented in Table 2 on page 6 are statistical projections to all debt
                               compromise cases in the five selected States, data for the subsets of open and closed cases
                               reflect only the cases in our sample. Projecting estimates for these smaller populations
                               would result in a low level of precision.



          OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES                      7
  F 	I N D I N G       S


                      whether noncustodial parents meet their agreements.12 In reviewing
                      payment records, we found that noncustodial parents in 60 of the
                      154 sample cases paid irregularly (44 cases) or not at all (16 cases)
                      following debt compromise. However, we found evidence of rescission in
                      only 2 of the 60 cases with irregular or no payments and no other
                      evidence of corrective action toward irregular payers in these cases.

                                                              Officials in 18 of the 20 States
Cases are eligible for debt compromise based on a             with programs considered the
number of factors, including large arrearages, and            amount of the arrearage in
   local managers typically negotiate agreements              determining eligibility for debt
                                                              compromise, allowing for
                      settlement if the arrearage was so large that they considered repayment
                      unlikely. Other factors States considered include:

                      •	        children are emancipated and the custodial parent is not owed
                                current support (13 States);

                      •	        the case and resulting arrearage have been in the caseload for a
                                lengthy period, typically more than 5 years (11 States);13
                      •	        a lengthy period has passed since the last payment, typically more
                                than 1 year (11 States);

                      •	        there has been a significant change in the circumstances of the case;
                                e.g., the noncustodial parent has been incarcerated (11 States);

                      •	        the noncustodial parent has incurred a new child support case with
                                current support owed and the existing case had only an arrearage
                                owed to the State (11 States); and

                      •	        most or all of the arrearage is attributable to interest and/or
                                penalties (7 States).
                      Large arrearages accumulated in part because States charged interest on
                      the principal and established orders with retroactive balances
                      Four of the five States we reviewed charged noncustodial parents
                      interest on arrearages owed to the State.14 Interest rates ranged from

                           12 Although California has no formal policy or procedure for monitoring debt compromise
                           cases, CSE officials report that local offices follow open cases closely and that the State
                           has rescinded 11 agreements since the debt compromise program’s inception in 2005.
                           13In contrast, California eligibility requires a recent history of regular payment. 

                           Available online at www.childsup.cahwnet.gov/pub/policy/css/2004/css04-07.pdf. 

                           Accessed May 9, 2007. 

                           14 Washington does not charge interest on arrearages. Available online at 


                           http://apps.leg.wa.gov/WAC/default.aspx?cite=388-14A-7110. Accessed May 9, 2007. 




    OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES                        8
F   I N D I N G        S


                      4 percent to 18 percent and comprised 21 percent of the arrearages owed
                      in the cases that we reviewed from these four States.15 CSE agency
                      officials in three of these States reported that they believe interest and
                      penalties serve as incentives for noncustodial parents to pay arrearages
                      and/or deter accumulation of arrearages. The fourth State, New Mexico,
                      reduced its interest rate from 14 percent to 4 percent after CSE officials
                      came to view interest as too punitive and counterproductive.16 They
                      reported their belief that high interest rates increased debt to an
                      amount that becomes unpayable and discouraged parents from
                      attempting to pay. The Texas CSE agency also lowered its interest rate
                      from 12 percent to 6 percent, effective in 2002.17
                      Of the five States reviewed, arrearages in Massachusetts and Texas
                      may be attributed in part to “retroactive” balances imposed when
                      creating the child support order. In these cases, time had elapsed
                      between the birth and the time the child support orders were put in
                      place, and States established the orders with arrearages equal to what
                      the noncustodial parent would have paid from the dependents’ births
                      and, in some cases, medical costs incurred at birth. Both States have
                      stopped retroactive accumulation of arrearages.18
                      For cases that meet eligibility requirements, local managers commonly
                      make the final determination to allow debt compromise agreements

                      All 20 States with debt compromise programs conduct a negotiation
                      process with noncustodial parents to determine the amount of arrearage
                      to be settled. In 12 of the 20 States, this amount is largely
                      predetermined based on State policies (such as in Massachusetts, where
                      the amount settled is usually equal to the amount of interest and
                      penalty). In the remaining eight States, managers and caseworkers

                         15For example, Massachusetts charges 12-percent interest and an additional penalty of
                         6 percent on the principal owed. As State policy, the debt settled through its compromise
                         program was always the amount of the interest and penalty owed. Available online at
                         http://www.mass.gov/?pageID=dorterminal&L=6&L0=Home&L1=Businesses&L2=Help+
                         %26+Resources&L3=Legal+Library&L4=Regulations+(CMRs)&L5=18%2c+119A%2c+175
                         %3a+Child+Support+Enforcement&sid=Ador&b=terminalcontent&f=dor_rul_reg_reg_83
                         0_cmr_119a_6_1&. Accessed May 9, 2007.
                         16 Reference to reduction in policy is available online at

                         http://legis.state.nm.us/lcs/lfc/lfcdocs/budget/2007RecommendVolI.pdf. Accessed May 9,
                         2007.
                         17 Texas Statutes Family Code 157.265, Accrual of Interest on Child Support. Available

                         online at http://tlo2.tlc.state.tx.us/statutes/fa.toc.htm. Accessed May 9, 2007.
                         18 The Massachusetts CSE agency stopped retroactive accumulation of arrearages in
                         1998 and the Texas CSE agency stopped in 2002.



    OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES                 9
F   I N D I N G        S


                      have discretion to determine amounts settled based on the
                      circumstances of individual cases. Additionally, 12 of the 20 States offer
                      to negotiate compromise of debt owed to custodial parents in
                      conjunction with the negotiations regarding debt owed to the State.

                      Ten of the twenty States with programs reported that managers in their
                      local CSE offices make final decisions regarding debt compromise. In
                      another eight States, decisions are made by individual caseworkers or
                      staff specifically assigned to arrearages management or debt
                      compromise programs. These caseworkers are typically given prior
                      training in debt compromise criteria and negotiation procedures, then
                      largely given autonomy to make decisions after reviewing case
                      information and communicating with the noncustodial parent. In the
                      remaining two States, judges approve debt compromise agreements,
                      often with input from CSE agency staff.



    CSE officials in States with programs report a         State CSE officials in 17 of the
        largely positive view of debt compromise,          20 States with debt compromise
                                                           programs expressed positive views
     although a few express concern that settling
                                                           of debt compromise practices, citing
      debt is contrary to the enforcement process
                                                           a number of advantages to reducing
                      debt in carefully selected cases. Officials in the remaining three States
                      and in the eight States without programs reported concerns about using
                      debt compromise.

                      The officials who were positive most often mentioned the advantage of
                      receiving at least a portion of arrearages previously considered
                      uncollectible and the benefit of more regular subsequent payment. One
                      official indicated that all parties benefit–the custodial parent and
                      dependents receive more consistent support, the noncustodial parent is
                      released from the burden of overwhelming debt, and the State
                      government collects at least a portion of what was previously owed.
                      Other advantages included reduced caseloads because of case closure
                      and improved family involvement by noncustodial parents.

                      CSE agency officials in the remaining three States with programs and
                      in the eight States without programs raised concerns about debt
                      compromise, reporting that negotiating agreements can take staff time
                      away from managing and enforcing more active cases. They also
                      expressed a belief that debt compromise conflicts with the CSE agency’s
                      primary mission of collecting child support for families. These officials
                      reported that debt compromise could appear to reward poor payers and

    OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   10
F   I N D I N G        S


                      send a signal to noncustodial parents that they are not responsible for
                      child support debt and that the settlement of debt in selected cases is
                      unfair to other parents who pay all that is owed.

                      Officials in the 31 States that compromise debt on only a case-by-case
                      basis (23 States) or not at all (8 States) reported a number of reasons for
                      not implementing programs, including reluctance of State legislatures
                      to approve settlement of State debt and negative public opinion toward
                      settling debt incurred through public assistance programs.
                      Additionally, officials in all of these 31 States reported that they prefer
                      to address potential problems by attempting to prevent arrearages,
                      listing methods such as establishing orders appropriate to the
                      noncustodial parent’s income and adjusting orders as circumstances
                      change. Even given these concerns and practices, 17 of these 31 States
                      reported that they are considering implementing debt compromise
                      programs and are in the process of weighing the costs and benefits.




    OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   11
Δ   R E C O M M E N D A T I O N

                  Twenty States have implemented debt compromise programs, 23 other
                  States use debt compromise on a case-by-case basis, and many of these
                  States are considering full programs. We found that States were often
                  able to close cases following debt compromise and that debt compromise
                  resulted in lump sums payments to States and families. Additionally,
                  officials in States with programs reported a largely positive view of debt
                  compromise. However, four of the five States did not routinely follow up
                  with noncustodial parents who paid irregularly or not at all following
                  debt compromise to ensure that they meet their agreements. To
                  enhance the effectiveness of State use of debt compromise, we
                  recommend that OCSE:
                  Issue Guidance Encouraging States To Routinely Monitor Cases that
                  Remain Open Following Debt Compromise Agreements
                  We recommend that OCSE issue program guidance to States
                  emphasizing the need to routinely monitor cases that remain open
                  following debt compromise to ensure that noncustodial parents meet
                  their agreements, such as regular payment of current support and
                  arrearages, and develop standards and alternatives for corrective
                  action.

                  Because of the high level of interest in and use of debt compromise, we
                  suggest that OCSE also consider issuing guidance regarding the
                  administration of debt compromise programs to assist States that are
                  considering new programs or revising current practices. This guidance
                  could be based on information and insights from States with mature
                  programs, and topics could include the criteria used for determining
                  which cases are eligible for debt compromise, the proportion or nature of
                  the debt to be settled, suggestions for training staff in making case
                  determinations, and use of debt compromise to close child support cases
                  in which only arrearages are owed. Such guidance would need to make
                  clear that States are not required to implement debt compromise
                  programs and that States may use discretion in implementing the
                  guidance.




OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   12
R   E C O        M M E N D A T                   I O N 





                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      The Administration for Children and Families (ACF) and the Assistant
                      Secretary for Planning and Evaluation (ASPE) jointly provided
                      comments in response to our draft report.

                      ACF concurred with our recommendation to issue guidance encouraging
                      States to routinely monitor cases that remain open following debt
                      compromise agreements and with our suggestion to issue guidance to
                      States regarding administration of debt compromise programs to assist
                      States that are considering new programs or revising current practices.

                      ACF outlined current and planned guidance activities, including hosting
                      teleconferences focused on debt compromise for interested States and
                      establishing an electronic workplace for States to share documents and
                      information on arrears issues, including debt compromise. ACF also
                      plans to develop guidance materials addressing arrears management
                      issues as part of the implementation of a new initiative, Project to Avoid
                      Increasing Delinquencies (PAID). ACF indicates that the PAID
                      Steering Committee will review this report and determine the type of
                      guidance that the States desire on the subject of debt compromise.

                      In describing this current and proposed guidance, ACF did not explicitly
                      address providing guidance to States regarding monitoring of open cases
                      following debt compromise agreements. Because the lack of monitoring
                      of debt compromise cases poses a vulnerability to the integrity of State
                      debt compromise programs, we recommend that ACF provide guidance
                      to States specific to this issue.

                      ASPE commented that the report was useful in providing information
                      regarding a policy area in which little research exists. ACF and ASPE
                      also provided technical comments, which we incorporated as
                      appropriate, and ACF submitted a number of questions and
                      observations regarding debt compromise programs that cannot be
                      answered by this study but could be considered in future work.

                      ACF’s and ASPE’s comments are included in Appendix E.




    OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   13
Δ   A PP PP DE E N N DD I I XX
    A                                        AB



                  DESCRIPTIONS OF CHILD SUPPORT PROGRAMS IN
                  SELECTED STATES
                  We selected 5 States for site visits (California, Massachusetts, New
                  Mexico, Texas, and Washington) from among the 12 States with fully
                  implemented Statewide programs that had at least 1 year of experience
                  with debt compromise. We also considered geographic location and
                  child support program characteristics, such as how large the caseload
                  was and whether the States relied primarily on judicial or
                  administrative procedures (see Table A). The selected States all review
                  and adjust child support cases every 3 years and review any case upon
                  request. These States use similar enforcement measures for collections
                  and dealing with arrearages, including license revocation, property or
                  asset seizure, and tax intercepts.

                                                                           Table A:
                                                    Program Characteristics for Selected States

                                                                                                       Procedures
                                               Caseload Size          Calculation
                            State
                                                 FY 2005                Model               Order                Order
                                                                                        Establishment         Enforcement

                                                                         Income                                Judicial and
                         California               1,762,996                                 Judicial
                                                                         Shares                               Administrative
                                                                                                                 Primarily
                                                                       Percentage
                     Massachusetts                 268,640                                  Judicial          Administrative
                                                                        of Income
                                                                                                              (some judicial)
                                                                         Income                                Judicial and
                       New Mexico                   70,217                                  Judicial
                                                                         Shares                               Administrative
                                                                                           Primarily
                                                                       Percentage                              Judicial and
                            Texas                  913,551                              Administrative
                                                                        of Income                             Administrative
                                                                                        (some judicial)
                                                                         Income          Judicial and
                       Washington                  341,069                                                    Administrative
                                                                         Shares         Administrative

                     Source: Office of Child Support Enforcement Preliminary Data Report, FY 2005.




OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES                       14
A   P   P E N D       I X             A


                      California. California was the only State selected for review with a
                      county-administered program. The Department of Child Support
                      Services is a component of the California Health and Human Services
                      Agency and comprises 52 local child support agencies, including
                      11 counties that have combined to form 6 regional agencies. The State
                      relies solely on judicial procedures for child support order
                      establishment. Support amounts are determined using an income
                      shares calculation model, calculating a percentage of each parent’s net
                      disposable income and adjusting the amount based on the percentage of
                      time each parent has primary physical responsibility for the child.
                      California’s interest rate for missed payments and adjudicated
                      arrearages as well as retroactive support is 10 percent per year.
                      Interest accrues from the date of the missed payment or a judgment
                      establishing either an arrearage or retroactive support resulting from
                      paternity establishment.
                      Massachusetts. Massachusetts’ program is administered by the State’s
                      Department of Revenue through five regional offices, two satellite
                      offices, and a customer service call center. Child support and custody
                      orders are established through the courts and support amounts are
                      calculated as a percentage of parents’ income. Massachusetts imposes
                      12-percent interest and an additional penalty of 6 percent on delinquent
                      payments and arrearges. Some noncustodial parents may not be
                      required to pay interest or may be eligible to apply for a waiver.
                      New Mexico. New Mexico has a State-administered program of seven
                      offices overseen by the CSE Division of the New Mexico Human Services
                      Department. The courts establish paternity and finalize child support
                      orders. Support amounts are determined by an income shares
                      calculation model, which considers the income of both parents.
                      Noncustodial parents with delinquent payments and arrearage balances
                      currently face an interest rate of 4 percent.
                      Texas. The Texas Child Support Division operates a State-administered
                      program within the Office of the Attorney General. Sixty-eight offices
                      (regional and local) report to the State CSE. Texas uses a quasi-
                      administrative process to establish support obligations, referring cases
                      to the courts in situations involving paternity establishment and
                      retroactive support, a minor parent, an incarcerated parent, histories of
                      family violence, foster care, or interstate child support cases. Child
                      support amounts in Texas are calculated as a fixed percentage of the
                      noncustodial parent’s net resources with adjustments for multiple


    OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   15
A   P   P E N D       I X             A


                      family obligations. However, courts have discretion to deviate from
                      these general guidelines. Interest accrues on the delinquent child
                      support at 6-percent simple interest annually. Payments are considered
                      delinquent if not received before the 31st day after payment is due. For
                      court-imposed retroactive support, interest accrues from the date the
                      order is rendered.
                      Washington. Washington operates a State-administered program.
                      Washington’s Division of Child Support includes 10 field offices and is
                      part of the State’s Department of Social and Health Services. In
                      establishing support orders, Washington uses the administrative
                      process if no court order specifically establishes or relieves a parent of
                      support obligation. Custody issues and paternity establishment are
                      handled through the judicial process. Support amounts are set under
                      an income shares calculation model based on the income of both
                      parents. Interest is imposed only in cases for which retroactive
                      arrearages are imposed by the courts.




    OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   16
Δ     A P P E N D I X                          B




                  DETAILED METHODOLOGY
                  Data used in this evaluation were collected through a survey of all
                  States and a review of a sample of 259 debt compromise cases from five
                  States with debt compromise programs.
                  Data Collection and Analysis
                  Survey of All States. To determine the prevalence and characteristics of
                  debt compromise practices among States, we surveyed all States and
                  the District of Columbia (hereafter referred to as States). Respondents
                  were CSE program directors or managers directly involved with
                  administering the debt compromise program in their States. Survey
                  questions included whether States had any experience with debt
                  compromise programs recently or in the past, whether they actively
                  pursued debt compromise, and what the current status of their
                  programs was. We asked States with operating programs to provide
                  additional details related to eligibility, compromise requirements,
                  policies for making determinations, caseloads, and participation levels.
                  Site Visits to Selected States. To determine the outcomes of debt
                  compromise programs on cases, we purposively selected five States
                  (California, Massachusetts, New Mexico, Texas, and Washington) to
                  review child support cases with compromise agreements. We selected
                  these from among the 12 States with at least 1 year of experience with a
                  Statewide debt compromise program. We also considered geographic
                  location and child support program characteristics, such as how large
                  the caseload was and whether a State relied primarily on judicial or
                  administrative procedures.

                  We conducted site visits and interviewed State CSE agency staff and
                  managers in each of the five States. State officials provided information
                  about staff involvement in developing and implementing debt
                  compromise programs, their experiences in identifying and working
                  with cases, and their perceptions of debt compromise program results.

                  From each of the five States, we requested a list of all cases involved in
                  debt compromise agreements since the inception of their programs. The
                  resultant population was a total of 6,719 cases. We selected a random
                  sample of 55 debt compromise cases from each State for further review.
                  Upon review, 16 cases sent by States did not meet our criteria, resulting
                  in a final sample of 259 cases (see Table B on next page).

OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   17
A   P   P E N D       I X             B       




                                                                              Table B:
                                          Distribution of Debt Compromise Sample Cases by Selected State

                                                                                                Final
                                                                            Original
                                                                                              Number of    Calculated
                           Selected State           Total Cases            Number of
                                                                                                Cases       Weights
                                                                         Cases Sampled
                                                                                               Sampled

                        California                      992                     55                  51       18.04

                        Massachusetts                   530                     55                  54         9.64

                        New Mexico                      325                     55                  50         5.91

                        Texas                           589                     55                  52       10.71

                        Washington                     4,283                    55                  52       77.81

                        Total                          6,719                   275                  259        N/A

                        Source: Office of Inspector General analysis of debt compromise cases in five States, 2006.


                      Case Reviews. For each sample case, we collected the amounts of
                      arrearages, amounts compromised, and remaining arrearages. We
                      reviewed case files to determine whether any additional requirements
                      had been imposed on noncustodial parents in exchange for the debt
                      reduction, whether CSE agencies followed up, and whether the cases
                      had current support orders or only arrearages.

                      We also obtained payment records for each sample case, including all
                      payments made for the 12-month period before a compromise agreement
                      and 12 months after compromise.19 For the 154 cases that remained
                      open after debt compromise, we compared these measures to determine
                      whether the regularity of payments changed following debt compromise.
                      Cases closed as a result of a compromise agreement had no further
                      payment history and were not included in this analysis. We categorized
                      the payment behavior of noncustodial parents during each 12-month
                      period into three groups:

                      •	     Regular Payment—payments were made with no more than
                             3 missed payments on a biweekly payment schedule (26) or no more
                             than 1 missed payment on a monthly schedule (12);

                           19 Seven cases in our California sample were so recent that only 6 months of payment
                           data was available, rather than 12 months.



    OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES                     18
A   P   P E N D       I X             B


                      •	    Irregular Payment—payments were made, but there were more
                            than three missed payments on a biweekly payment schedule or
                            more than one missed payment on a monthly schedule;

                      •	    No Payment—no record of payments for the 12-month period.

                      Cases classified as having irregular payment or no payment were
                      combined for final analysis, leaving two groups: regular payment and
                      irregular payment. Because of the small number of cases that remained
                      open following debt compromise (154), we did not project the findings of
                      this analysis to the population of debt compromise cases in the five
                      selected States.

                      We also identified lump sum payments from case notes, compromise
                      agreements, and payment histories and verified that all anticipated
                      lump sums were ultimately paid. We calculated average lump sum
                      amounts based on verified payment amounts.

                      Statistical Projections. We analyzed arrearage and payment data for the
                      259 cases in the sample and projected our findings to the population of
                      debt compromise cases in the five selected States. Table B on the prior
                      page presents the weights used to address the differing proportions of
                      all debt compromise cases in each State to the number of cases in our
                      sample. Appendix D includes estimates, standard errors, and
                      confidence intervals for dollar amounts reported as arrearages owed,
                      arrearages settled, and lump sums paid.
                      Data Limitations. Because we purposively selected States, we do not
                      project our findings beyond the population of debt compromise cases in
                      the five selected States. Outcomes observed in the five sample States
                      are not intended as a measure of the effectiveness of the debt
                      compromise programs in those States.




    OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   19
Δ   A P P E N D I X                               C



                  STATUS OF DEBT COMPROMISE FOR ALL STATES


                                                                          Table C:

                                                   Status of Debt Compromise for All States

                  State                                                     Program Status            Start Date

                  Alabama                                                    Case-by-Case

                  Alaska                                                      Pilot Program              2005

                  Arizona                                                    Case-by-Case*

                  Arkansas                                                    No Program

                  California                                           Fully Implemented Program         2003

                  Colorado                                                   Case-by-Case

                  Connecticut                                                 Pilot Program              2006

                  Delaware                                                   Case-by-Case

                  District of Columbia                                       Case-by-Case

                  Florida                                                    Case-by-Case

                  Georgia                                                    Case-by-Case

                  Hawaii                                                     Case-by-Case

                  Idaho                                                       No Program

                  Illinois                                                   Case-by-Case

                  Indiana                                                     No Program

                  Iowa                                                        Pilot Program              2001
                                                                                                           1985
                  Kansas                                                      Pilot Program
                                                                                                     (limited basis)
                  Kentucky                                                   Case-by-Case

                  Louisiana                                                  Case-by-Case

                  Maine                                                      Case-by-Case

                  Maryland                                                    Pilot Program           2000-2003

                  Massachusetts                                               Pilot Program              2000

                  Michigan                                             Fully Implemented Program         2005

                  Minnesota                                                  Case-by-Case

                  Mississippi                                                 No Program



OEI-06-06-00070        S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES              20
A   P   P E N D           I X               C     





                  State                                                     Program Status                Start Date

                  Missouri                                                    No Program

                  Montana                                              Fully Implemented Program             1998
                                                                                                            1993
                  Nebraska                                             Fully Implemented Program
                                                                                                       (approximately)
                  Nevada                                                     Case-by-Case

                  New Hampshire                                              Case-by-Case

                  New Jersey                                                 Case-by-Case

                  New Mexico                                                  Pilot Program                  2005

                  New York                                                    No Program

                  North Carolina                                       Fully Implemented Program             2005

                  North Dakota                                         Fully Implemented Program             2005

                  Ohio                                                       Case-by-Case

                  Oklahoma                                                   Case-by-Case

                  Oregon                                               Fully Implemented Program         None listed

                  Pennsylvania                                               Case-by-Case

                  Rhode Island                                               Case-by-Case

                  South Carolina                                             Case-by-Case

                  South Dakota                                               Case-by-Case

                  Tennessee                                                   No Program

                  Texas                                                Fully Implemented Program             2001

                  Utah                                                 Fully Implemented Program         None listed

                  Vermont                                              Fully Implemented Program         None listed

                  Virginia                                                    No Program
                                                                                                            1977
                  Washington                                           Fully Implemented Program
                                                                                                       (approximately)
                  West Virginia                                        Fully Implemented Program         None listed

                  Wisconsin                                                   Pilot Program              None listed

                  Wyoming                                                    Case-by-Case

                  Source: Office of Inspector General, Debt Compromise State Survey, 2006. 

                  *Arizona CSE officials reported plans to implement a full debt compromise program in 2007 or 2008. 





OEI-06-06-00070        S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES                  21
Δ    A P P E N D I X                                  D



    ESTIMATES AND CONFIDENCE INTERVALS

                                                                 Table D:
                Estimates and 95-Percent Confidence Intervals for Arrearage and Payment Data

                                                           Mean              Standard        Lower Limit   Upper Limit
                                                          Estimate             Error

    Average Arrearage
    (n=259)                                               $22,029             1,852.0          $18,381      $25,676

                                     California              $21,009          2,151.0          $16,771       $25,247
                              Massachusetts                   $11,029         1,385.0           $8,300       $13,757
                                  New Mexico                 $16,514          1,851.0          $12,868       $20,159
                                              Texas          $19,349          3,273.0          $12,902       $25,795
                                  Washington                 $24,446          2,815.0          $18,902       $29,989
    Average Settled
    (n = 259)                                              $9,383             1,013.0          $7,388       $11,378

                                     California              $16,324          1,868.0          $12,646       $20,002
                              Massachusetts                     $3,544         530.0            $2,499        $4,588
                                  New Mexico                  $11,000         1,363.0           $8,315       $13,685
                                              Texas          $13,824           2,88.0           $8,194       $19,453
                                  Washington                    $7,828        1,472.0           $4,928       $10,727

    Average Lump Sum Paid
    at Compromise (n = 117)                                $5,515              664.4           $4,207        $6,823

                                     California                 $4,061        1,107.0           $1,882        $6,241
                              Massachusetts                     $8,108         991.3            $6,156       $10,061
                                  New Mexico                    $2,617         813.4            $1,016        $4,219
                                              Texas             $1,139         151.2             $841         $1,436
                                  Washington                    $5,838        1,596.0           $1,596        $8,981

    Source: Office of Inspector General analysis of 259 cases in five States, 2006.




OEI-06-06-00070          S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES                   22
Δ   A P P E N D I X                          E


     Agency Comments




OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   23
A P P E N D        I X             ~       E




 OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   24
A P P E N D        I X             ~       E




 OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   25
Δ   A C K N O W L E D G M E N T S




                  This report was prepared under the direction of Kevin K. Golladay,
                  Regional Inspector General for Evaluation and Inspections and A.
                  Blaine Collins, Deputy Regional Inspector General for Evaluation and
                  Inspections in the Dallas regional office.

                  Ruth Ann Dorrill served as the team leader for this study and Scott
                  Whitaker served as the project leader. Other principal Office of
                  Evaluation and Inspections staff from the Dallas regional office who
                  contributed to this report include Dana McClellen; central office staff
                  who contributed to this report include Ayana Everett and Barbara
                  Tedesco.




OEI-06-06-00070   S TAT E U S E   OF   DEBT COMPROMISE   TO   REDUCE CHILD SUPPORT ARREARAGES   26
